NO.

 

IN THE
SUPREME COURT OF THE UNITED STATES

GEORGE CHARLES CLARK,
Petitioner
v.
CHAMPION NATIONAL SECURITY, INCORPORATED,
Respondent.

On Petition for Writ of Certiorari
To the United States Court of Appeals
For the Fifth Circuit

PROOF OF SERVICE

Susan F. Hutchison
Texas State Bar No. 10354100
Counsel of Record for Petitioner

Hutchison & Stoy, PLLC
505 Pecan Street, Suite 101
Fort Worth, Texas 76102
sehservice@hsjustice.com
T: (817) 820-0100

F: (817) 820-0111

 
On August 17, 2020, I, Susan E. Hutchison, Counsel for Petitioner George
Charles Clark, pursuant to Supreme Court Rule 29.3 deposited a single copy of the
Petition for Writ of Certiorari in the United States Mail to Defendant’s counsel. The

mailing contained first-class postage prepaid and was — to counsel of record

/

at the proper address.

 
